Orrick, Herrington & Sutcliffe LLP
Columbia Center
1152 15th Street, N.W.
Washington, DC 20005-1706
+1 202 339 8400

October 28, 2020
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543

Re:

orrick.com

Thomas M. Bondy
E tbondy@orrick.com
D +1 202 339 8406
F +1 202 339 8500

Whatley v. Warden, Georgia Diagnostic & Classification Center, No. 20-363

Dear Mr. Harris,
Pursuant to this Court’s order dated March 19, 2020, petitioner in the above-captioned case
respectfully requests that the Court delay distribution of the petition for a writ of certiorari for 6
days. The petition is currently scheduled for distribution no earlier than November 4, 2020. If
this Court were to grant the requested 6-day delay, distribution of the petition would occur no
earlier than November 10, 2020. The conference date would then be December 4, 2020.
Petitioner requires the additional time to file his reply due to the logistical difficulties and
dislocations caused by the COVID-19 pandemic, including the need to coordinate among
separate law offices each operating remotely. Further, Petitioner is currently incarcerated, and on
death row. Counsel for Respondent has authorized me to represent that Respondent does not
object to the requested delay in distribution.

Very truly yours,

/s/ Thomas M. Bondy
Thomas M. Bondy
Counsel of Record
for Petitioner Frederick R. Whatley

October 28, 2020
Page 2

cc:
Christopher M. Carr
Andrew Pinson
Beth A. Burton
Sabrina D. Graham
Office of the Georgia Attorney General
40 Capitol Square, SW
Atlanta, Georgia 30334
(404) 656-7659
sgraham@law.ga.gov

